                                      TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



September 3, 2014

Robert M. Deacy, Sr., LP 5D-C

FINAL REPORT – EVALUATION REVIEW 2014-15218 – REVIEW OF THE KINGSTON
RECOVERY PROJECT


This review was initiated as part of our ongoing commitment to provide oversight of the
Kingston Recovery Project. The objective of our review was to determine if the
Tennessee Valley Authority (TVA) is meeting its commitments for the Kingston Recovery
Project.

Our review found TVA has met, or is in the process of meeting, its commitments for the
Kingston Recovery Project. Community leaders and regulatory personnel interviewed
were satisfied with TVA’s actions to meet its commitments. Tom Kilgore, former President
and Chief Executive Officer of TVA, testified before the U.S. Congress several times
stating TVA’s commitment to clean up the spill, protect the public health and safety,
restore the area, and to look for opportunities and work closely with the leaders and
residents of Roane County to make the area better than it was before the spill.

In order to address these commitments, TVA has taken a number of steps. Specifically,
TVA has cleaned up the ash spill and restored the area, protected public health and
safety, kept the public and stakeholders informed and involved in the process, and helped
with the economic development of Roane County. Some community leaders believe TVA
has worked to make the area better than it was before the spill.

BACKGROUND

On Monday, December 22, 2008, between 12 midnight and 1 a.m., a portion of the dike
for an ash containment area at Kingston Fossil Plant failed. Approximately 5.4 million
cubic yards of fly ash and bottom ash were released onto land and into adjacent
waterways, including the Emory River that flows into the Clinch River near the plant. The
approximate 1 billion gallons of coal combustion waste slurry covered about 300 acres of
which 8 were privately owned lands, not owned or managed by the TVA. The impacts of
the coal ash spill destroyed and/or damaged (1) the railroad adjacent to the plant; (2) real
and personal property; and (3) community infrastructure, including roads and utilities.
TVA took immediate and ongoing actions to address the needs of those affected, clean up
the spill, and protect human health and the environment.




      WARNING: ThIs document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
       distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
               is not to be further distributed without prior approval of the Inspector General or his designee.

                                      TVA RESTRICTED INFORMATION
Robert M. Deacy, Sr.
Page 2
September 3, 2014


TVA’s Office of the Inspector General committed to providing oversight where warranted
and completed several reviews pertaining to the initial emergency response, root cause
analysis, environmental monitoring, and impoundment stability.1

OBJECTIVE, SCOPE, AND METHODOLOGY

This review was initiated as part of our ongoing commitment to provide oversight of the
Kingston Recovery Project. The objective of our review was to determine if TVA is
meeting its commitments for the Kingston Recovery Project. The scope of this review
includes the actions taken to address the Kingston ash spill.

In order to achieve our objective, we (1) identified significant Kingston Recovery Project
commitments; (2) interviewed key TVA personnel, personnel at key regulatory agencies,
and Roane County community leaders; (3) reviewed TVA and regulatory agency
documentation; and (4) performed walkthroughs and site observations of work
completed/in progress.

This review was performed in accordance with the Council of the Inspectors General for
Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.

FINDINGS

Our review found TVA has met, or is in the process of meeting, its commitments for the
Kingston Recovery Project. Community leaders and regulatory personnel interviewed
were satisfied with TVA’s actions to meet its Kingston Recovery Project commitments.
Tom Kilgore, former President and Chief Executive Officer of TVA, testified before the
U.S. Congress several times stating TVA’s commitment to clean up the spill, protect the
public health and safety, restore the area, and to look for opportunities and work closely
with the leaders and residents of Roane County to make the area better than it was before
the spill. Specifically, we identified four major commitments made by TVA related to the
Kingston ash recovery:

    Cleaning up the spill and improving the area in coordination with the people of Roane
     County.
    Protecting the health and safety of the public and recovery personnel.
    Keeping the public and stakeholders informed and involved in formulation of the
     response activities.
    Helping with the economic development of Roane County and making it better than it
     was before the spill.



1
    Inspection 2008-12283-01 – Kingston Fossil Plant Ash Slide Interim Report;
    Inspection 2008-12283-02 – Review of the Kingston Fossil Plant Ash Spill Root Cause Study and
    Observations About Ash Management;
    Inspection 2008-12283-07 – Review of the Environmental Sampling and Monitoring Plans for the Kingston
    Ash Spill; Inspection 2009-12910-01 – Peer Review of Stability Analysis of Dike C at Kingston Fossil Plant;
    Inspection 2010-13034 – Review of TVA’s Kingston Ash Spill Clean-Up and Recovery Efforts; and
    Inspection 2011-14109 – Review of Non-Time-Critical Kingston Ash Recovery Project Activities.
                                   TVA RESTRICTED INFORMATION
Robert M. Deacy, Sr.
Page 3
September 3, 2014


In order to address these commitments, TVA has taken a number of steps. Specifically,
TVA has cleaned up the ash spill and restored the area. TVA is in the process of
completing the cap and cover of the dredge cell, which is scheduled for completion in
November 2014. We found TVA protected public health and safety and is continuing
environmental monitoring. TVA has made thousands of pages of documentation available
to the public. TVA has also helped with the economic development of Roane County as a
way to make it better than it was before the spill.

TVA Has Cleaned Up the Ash Spill and Restored the Area
We found TVA has cleaned up the ash spill and restored the area. During his testimony to
Congress, Mr. Kilgore stated TVA was committed to a first-rate job of remediation of the
problems caused by the spill. In order to accomplish this, TVA worked with the
Environmental Protection Agency (EPA) and the Tennessee Department of Environment
and Conservation (TDEC) to manage the clean-up of the Kingston Ash Spill in accordance
with the Comprehensive Environmental Response, Compensation, and Liability Act
(CERCLA). On January 12, 2009, TDEC issued TVA a Commissioner’s Order under
which TDEC oversaw TVA’s clean-up activities, with technical review and input of EPA.
As response activities progressed beyond the initial response phase, TVA, EPA and
TDEC collectively determined that, given EPA’s specialized expertise, remaining site
clean up should be conducted under direct and primary EPA oversight. On May 11, 2009,
TVA and EPA entered into an Administrative Order and Agreement on Consent under
Sections 104(a), 106(a) and 107 of the CERCLA of 1980 pursuant to which TVA
performed the removal action described in the agreement. This removal action involved
the removal, processing, and disposal of a major portion of the ash material that was
released into the Emory River from the Kingston Fossil Plant. Under the agreement, TVA
worked with the EPA and TDEC with the common goal of cleaning up the ash spill
according to the nation’s highest standards for effectiveness, transparency, and public
involvement.

The major recovery work was divided into time-critical and non-time-critical activities. In
May 2010, TVA completed time-critical ash removal, which focused on removing the ash
from the Emory River’s main channel and the waters directly east of the site’s ash-storage
area. Ash was dredged from the Emory River channel, sluiced to ditches where it was
treated with polymer, dewatered, and temporarily stored at Kingston. A majority of the ash
was sent to a disposal site in Perry County, Alabama, which was completed in December
2010.

In order to transition from the time-critical ash removal to the non-time-critical ash
removal, TVA prepared a non-time-critical CERCLA Engineering/Evaluation/Cost
Analysis, which presented three alternatives to meet the CERCLA requirements. After
making the plan available for public comment, the alternative chosen called for all non-
time-critical ash to remain onsite and included constructing a new dike. Work included
(1) removing ash from the embayment, drying the ash, and transporting the ash to on-site
disposal areas; (2) restoring the embayment ecosystem to pre-spill conditions; (3) creating
a stabilization zone that surrounds the former dredge cell and ash pond; (4) stacking ash
in phases in the dredge cell, lateral expansion area, and ash pond; and (5) capping the
cell with a soil cover, which will be seeded and mulched. As of August 2014, TVA has
stated it is approximately 80 percent complete with capping the containment cell, which is
scheduled to be completed by November 2014. Additionally, Mr. Kilgore made a

                             TVA RESTRICTED INFORMATION
Robert M. Deacy, Sr.
Page 4
September 3, 2014


commitment to convert to dry ash handling and cease wet ash storage at Kingston. Dry
ash conversion at Kingston was completed in 2011.

Regulatory personnel interviewed were satisfied with TVA’s actions to meet its
commitments under the Administrative Order. An EPA employee gave an example of
TVA going above and beyond the requirements of the Administrative Order to do work not
required in the Lakeshore and Berkshire areas. Additionally, discussion with a TDEC
employee indicated a memo was written to TDEC General Counsel stating TVA had met
its commitments and the Commissioner’s Order could be closed.

Figures 1 and 2 are photographs of the cap and cover work in progress.




                                                                    Figure 1




                                                                    Figure 2

                            TVA RESTRICTED INFORMATION
Robert M. Deacy, Sr.
Page 5
September 3, 2014


Figure 3 is an aerial photograph of the North Embayment taken on May 29, 2014, where
clean-up has been completed.




                                                                                    Figure 3

TVA Protected Public Health and Safety
TVA appropriately protected public health and safety during the clean-up. Specifically,
TVA provided independent health screenings, conducted an ecological risk assessment,
and tested water and air quality. We also found TVA plans to continue long-term
environmental monitoring.

During the clean-up, TVA contracted with Oak Ridge Associated Universities (ORAU) to
provide independent health screening for residents living near the ash spill. ORAU results
concluded there were no adverse health effects to participants of the medical evaluations
and no expected long-term effects on physical health from current levels of exposure.
Additionally, TVA conducted a Baseline Ecological Risk Assessment,2 which concluded
ecological risks from exposure to ash or ash-related constituent of ecological concern
were, at most, moderate in the Emory River and low or negligible elsewhere in the river
system. None of the assessment endpoints were estimated to be a high potential risk in
any of the river reaches.

Also, TVA worked with the EPA and TDEC to monitor water quality. The extensive tests
repeatedly concluded drinking water was within safe standards. Monitoring air quality was
also a key element of protecting public health. TVA established multiple fixed-site, air-
monitoring stations as well as conducted mobile real time monitoring to assess the air


2
    The Baseline Ecological Risk Assessment was developed in support of the Kingston Ash Recovery
    Project, Non-Time-Critical Removal Action, River System Engineering Evaluation/Cost Analysis, which
    evaluated alternatives for restoration of the river system impacted by the Kingston ash spill.
                                  TVA RESTRICTED INFORMATION
Robert M. Deacy, Sr.
Page 6
September 3, 2014


quality within the adjacent community. Air monitoring results for the recovery project has
met the national ambient air quality standards.

TVA has a 30-year, EPA-approved environmental monitoring plan for the river system with
a 5-year review cycle. According to a TVA presentation dated May 2014, more than
16,000 samples and 400,000 analyses have been taken. Recent data shows (1) ash
concentrations are not adversely impacting organisms, (2) metal concentrations are
decreasing at and downstream of the spill site, and (3) fish and aquatic insect
communities have fully recovered from any ash-related impacts.

TVA Has Kept the Public and Stakeholders Informed
We found TVA kept the public and stakeholders informed and involved in formulation of
the response activities and has improved its communication practices. Immediately
following the spill, TVA was criticized for its communication practices. However, TVA
improved its communication efforts and made process improvements to facilitate the
delivery of timely and accurate information. We found that TVA’s communication efforts
were effective in resolving communication issues, and community leaders were satisfied
with TVA’s handling of communication with the public. Some of the ways TVA kept the
public and stakeholders informed include:

    The Roane County Community Advisory Group was formed to support and facilitate
     public awareness of and meaningful participation in the TVA clean-up. TVA and EPA
     representatives kept the Advisory Group members informed of the status of the
     recovery.
    TVA held public meetings to brief the public on activities at the site and allow members
     of the community to interact with the Kingston Ash Recovery Project management and
     personnel.
    TVA opened a Community Outreach Center where community members could file
     claims, ask questions, share concerns, and report problems.

In addition, TVA committed to making information pertaining to the clean-up and the
ruptured pond available to the public. In order to meet this commitment, TVA dedicated a
Web page to provide information to the public, such as fact sheets, reports, and other
documents from various sources including TVA, EPA, TDEC, Stantec Consulting,3 and
ORAU. The Web page contains links to thousands of pages of documentation related to
the spill and clean-up. For example, the Web page contains information regarding
materials contained in the ash, as well as air/water monitoring results.

TVA Has Helped With the Economic Development of Roane County
We found TVA has helped with the economic development of Roane County as a way to
make it better than it was before the spill. We also found some community leaders believe
TVA has worked to make the area better than it was before the spill. TVA (1) purchased
181 real properties for approximately $48.8 million and settled claims with the owners of
the properties for approximately $29.3 million, (2) settled 232 personal property claims for

3
    TVA hired Stantec Consulting to assess the condition of its ash ponds and help restructure ash
    management at TVA. Stantec provides professional consulting services in planning, engineering,
    architecture, landscape architecture, surveying, environmental sciences, project management, and project
    economics for infrastructure and facilities projects.
                                   TVA RESTRICTED INFORMATION
Robert M. Deacy, Sr.
Page 7
September 3, 2014


approximately $523 thousand, and (3) reached a mediated global resolution involving
more than 850 plaintiffs with claims arising from the spill for a total of approximately
$27.8 million. TVA also utilized the goods and services of local vendors during the
recovery project. For example, TVA worked with Alliance Haulers, a consortium of local
truckers, to ensure local participation in the clean up. TVA rebuilt and made
enhancements to the roads, utilities, and rail system affected in the ash spill. TVA also
provided a $43 million grant to the Roane County Economic Development Foundation
(RCEDF) to help offset the potentially negative impact of the spill and site-recovery
operations. Some of the projects in the RCEDF include: (1) building a new Roane County
school as well as making improvements to several existing schools, (2) doubling the City
of Kingston’s capacity to treat sewer, and (3) infrastructure and public recreation projects
in cities within Roane County. One million dollars of the RCEDF grant remains, which has
been earmarked as funding for public relations to counteract the negative effects of the
ash spill. In addition to cleaning up the area, TVA opened Lakeshore Park on May 30,
2014, which includes key features such as (1) paved walking trails, (2) courtesy docks and
fishing piers, (3) a boat ramp, and (4) a pedestrian bridge.

Community leaders interviewed believe TVA has made Roane County better than it was
before the spill. A community leader noted the river looked cleaner than before and gave
examples of TVA doing more than it had committed such as donating surplus equipment.
Additionally, TVA has issued two 30-year licenses to Roane County. One is for 5 acres to
build and maintain an Emergency Services Center, and the second license is for 5.3 acres
for a volunteer fire department. Community leaders also believed most people in the
community would agree TVA has met or will meet its commitments to the community.

Figure 4 is a picture of Dyllis Springs Elementary School completed in 2012 as part
of the RCEDF.




                                                                       Figure 4




                             TVA RESTRICTED INFORMATION
Robert M. Deacy, Sr.
Page 8
September 3, 2014


Figures 5 and 6 are aerial pictures of Lakeshore Park taken on May 29, 2014.




                                                                     Figure 5




                                                                     Figure 6




                            TVA RESTRICTED INFORMATION
Robert M. Deacy, Sr.
Page 9
September 3, 2014


This memorandum does not include any recommendations and is to be used for
informational purposes only. Accordingly, no response is necessary.

Information in this memorandum may be subject to public disclosure. Please advise us of
any sensitive information that you recommend be withheld.

                       -       -     -      -      -       -

If you have any questions or wish to discuss our observations, please contact John A.
Jacosalem, Auditor, Evaluations, at (423) 785-4821 or Gregory R. Stinson, Director,
Evaluations, at (865) 633-7367. We appreciate the courtesy and cooperation received
from your staff during the evaluation.



Robert E. Martin
Assistant Inspector General
 (Audits and Evaluations)
ET 3C-K

JAJ:FAJ
cc: William D. Johnson, WT 7B-K
    Dwain K. Lanier, MR 3K-C
    Justin C. Maierhofer, WT 7B-K
    Richard W. Moore, ET 4C-K
    R. Windle Morgan, WT 4D-K
    Charles G. Pardee, WT 7B-K
    TVA Board of Directors
    OIG File No. 2014-15218




                              TVA RESTRICTED INFORMATION
